"Review of Medicaid Enhanced Payments to Hospitals and the Use of Intergovernmental Transfers in North Carolina,"(A-04-00-00140)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Enhanced Payments to Hospitals and the Use of Intergovernmental Transfers in North Carolina," (A-04-00-00140)
June 22, 2001
Complete
Text of Report is available in PDF format (1.29 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that North Carolina used the enhanced payment provisions of the Medicaid program to develop
a mechanism to receive additional Federal Medicaid funds by using disproportionate share hospital payments (which are Federal
funds paid hospitals that serve a disproportionate number of low income patients) as the source of the State match for
the enhanced payments, thus effectively reducing the States matching share. In other words, the States practice
had the effect of using Federal funds to generate more Federal funds, thereby increasing the Federal share and decreasing
the State share of hospital medical expenditures. For fiscal years 1996 through 1999 North Carolina made enhanced payments
to hospitals totaling about $647 million, generating about $412 million in Federal funds. The hospitals retained the supplemental
payments and used the funds to pay facility expenses. As in other States, we are recommending actions the Centers for Medicare
and Medicaid Services need to take to place controls on the overall financing mechanisms States are using to circumvent
the Medicaid program requirement that expenditures be a shared Federal/State responsibility.